                                                                         Appendix I




Review of SEC Contracts for
Inclusion of Language Addressing
Privacy Act Requirements




                                                                            July 18, 2011
                                                                            Report No. 496
Review Conducted by C5i Federal, Inc.

  Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
  Report No. 496
                                            Page 1
                                                UNITED STATES
                              SECURITIES AND EXCHANGE COMM I SS I ON
                                          WASH I NGTON , D.C .   20S49


0 .. .. '<: 11 0 ..




                                      MEMORANDUM
                                                 July 18, 2011


              To:           Jayne L. Seidman , Acting Associate Chief Operating Officer, Office
                             of Administrative Services (OAS)

                            Thomas Bayer, Chief Information Officer, Office of Information
                             Technology (OIT)

              From:         H. David Kotz , Inspector General, Office of Inspector Genera 0&7~

              Subject:      Review of SEC Contracts for Inclusion of Language Addressing
                            Privacy Act Requirements, Report No. 496

              This memorandum transmits the U.S. Securities and Exchange Commission's
              Office of Inspector General's (DIG 's) final report on the DIG 's review of SEC
              contracts for inclusion of language that addresses privacy act requirements. The
              report contains two recommendations which if implemented should strengthen
              OAS 's contract oversight. We are pleased your offices concurred with both
              recommendations. Your written response to the draft report is included in
              Appendix IV.

              Within the next 45 days, please provide the O IG with a written corrective action
              plan that is designed to address the agreed upon recommendations. The
              corrective action plan should include information such as the responsible
              official/point of contact, timeframes for completing the required actions, and
              milestones identifying how you will address the recommendations cited in this
              report.




        Review of SEC Contracts for Inclusion of Language Addressing Privacy              July 18, 2011
        Report No. 496
                                                     Page ii
Should you have any questions regarding the report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
provided our contractors and staff during this review.


Attachment

cc:    James R. Burns, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Elisse B. Walter, Commissioner
       Kathleen L. Casey, Commissioner
       Jeff Heslop, Chief Operating Officer, Executive Director, Office of Chief
        of Operations
       Todd Scharf, Chief Information Security Officer, Office of Information
        Technology




Review of SEC Contracts for Inclusion of Language Addressing Privacy    July 18, 2011
Report No. 496
                                          Page iii
Review of SEC Contracts for Inclusion of
Language Addressing Privacy Act
Requirements
Background
In August 2010, the U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG), contracted with C5i Federal,
Inc. (C5i), for assistance in completing and coordinating the OIG’s input to the
Commission’s response to Office of Management and Budget (OMB)
Memorandum M-10-15, fiscal year (FY) 2010 Reporting Instructions for the
Federal Information Security Management Act (FISMA) and agency privacy
management, 1 and to perform two additional FISMA-related reviews. One of
these additional reviews addresses the SEC’s Continuous Monitoring Program. 2
This report presents the results of the other review, which addresses whether
SEC contracts contain appropriate language addressing Privacy Act
requirements, including provisions for protecting SEC personaIIy identifiable
information (PII). 3

Subsection (m)(1) of the Privacy Act of 1974 provides that when an agency
contracts for the operation of a system of records to accomplish an agency
function, the agency must include in the terms of the contract provisions making
the contractor responsible for complying with the Privacy Act. It also makes
these contractors liable under the criminal provisions of the Act. 4 SEC
Administrative Regulation 24-08 (SECR 24-08) establishes policy for the
Commission’s privacy program, including the protection of PII that is collected by
the SEC. SECR 24-08 applies not only to SEC employees, but also to
contractors and others working on behalf of the SEC who handle, control, or
have access to information, documents, or systems that contain PII. 5

In conducting this assessment, C5i reviewed a judgment sample consisting of 11
SEC contracts that included language requiring the contractors to handle SEC
PII. C5i also reviewed the results of the SEC’s FY 2010 Section (m) Contracts
Compliance Review memorandum, which contains the results of the SEC Privacy


1
  OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011).
2
  OIG, Assessment of the SEC’s Continuous Monitoring Program, Report No. 497 to be issued in late July
2011.
3
  In August 2010, the SEC’s Ethics and Compliance Employee Hotline received a call expressing concern
over the handling of PII by third-party vendors during the disgorgement process. This assessment does not
specifically describe the assessment of the handling of PII by third-party vendors engaged to administer
disgorgements because: (1) the complaint was not found to be substantiated and (2) most disgorgements
are administered by court-appointed third-party vendors who are not under contract with the SEC.
4
  5 U.S.C. § 552a(m)(1).
5
  SECR 24-08, Management and Protection of Privacy Act Records and Other Personally Identifiable
Information (Apr. 14, 2010), p. 1.
Review of SEC Contracts for Inclusion of Language Addressing Privacy                       July 18, 2011
Report No. 496
                                                Page 1
Office’s review of eight randomly selected SEC contracts for compliance with
Privacy Act requirements.


Objective
The objective of this review was to determine whether the Securities and
Exchange Commission’s contracts contain appropriate language addressing
Privacy Act requirements.




Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
Report No. 496
                                          Page 2
Finding 1: OAS’s Contracts Contain Appropriate
Language Addressing Privacy Act Requirements
C5i reviewed a judgment sample consisting of 11 SEC contracts that included
language requiring vendors to handle SEC PII. The sample contained employee
recruitment, financial systems management, and information technology
contracts. C5i found that each of the contracts in the sample contained the
appropriate sections addressing such requirements as nondisclosure
agreements, system security, and PII protection.

C5i also reviewed the results of the SEC’s FY 2010 Section (m) Contracts
Compliance Review memorandum, dated November 3, 2010, which details the
results of the SEC Privacy Office’s review of eight randomly selected SEC
contracts for compliance with Privacy Act requirements. The review concluded
that all sampled contracts included language binding vendors to the requirements
of the Privacy Act. C5i examined 6 additional contracts to verify that they
contained the appropriate provisions required by the Privacy Act for
nondisclosure agreements, background investigations of personnel, PII handling,
and security of systems. C5i found that the contracts did include such provisions
and therefore concurs with the conclusions of the FY 2010 Section (m) Contracts
Compliance Review Memorandum.

Although C5i’s assessment found that the SEC’s contracts contain language
requiring that vendors and their employees comply with the Privacy Act,
strengthening the language in SEC contracts that pertains to privacy and
information might help to ensure vendors’ compliance with those provisions. For
example, new contracts could include provisions requiring vendors to provide
copies of their privacy policies, privacy impact assessments, and evidence that
their systems have been certified and accredited consistent with industry best
practices. New contracts and interconnectivity agreements could also include
provisions requiring that security requirements defined by the Office of
Information Technology (OIT) are achieved for PII data transmitted over public
networks or stored on portable medial. Including such provisions could further
reduce the risk that PII will be mishandled.




Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
Report No. 496
                                          Page 3
       Recommendation 1:

       The Office of Administrative Services should add language provided by
       the Office of Information Technology to new service contracts that require
       the handling of PII data stating that the U.S. Securities and Exchange
       Commission requires the contractor to provide copies of the contractor’s
       privacy policies and privacy impact assessments.

       Management Comments. OAS and OIT concurred with this
       recommendation. See Appendix IV for management’s full comments.

       OIG Analysis. We are pleased that OAS and OIT concurred with this
       recommendation.

       Recommendation 2:

       The Office of Administrative Services should add Office of Information
       Technology-defined security requirements to applicable contracts stating
       that contractors handling electronic personally identifiable information (PII)
       data may be required to meet defined security requirements when
       transmitting PII data across public networks (i.e., Internet) or stored on
       portable media. The Office of Information Technology should also add
       language to applicable interconnectivity agreements stating that partners
       transmitting electronic PII data across public networks (i.e., Internet) are
       required to meet the Office of Information Technology-defined security
       requirements.

       Management Comments. OAS and OIT concurred with this
       recommendation. See Appendix IV for management’s full comments.

       OIG Analysis. We are pleased that OAS and OIT concurred with this
       recommendation.




Review of SEC Contracts for Inclusion of Language Addressing Privacy     July 18, 2011
Report No. 496
                                          Page 4
                                                                       Appendix I


                           Abbreviations/Acronyms

        FY               fiscal year
        OIG              Office of Inspector General
        OMB              Office of Management and Budget
        OIT              Office of Information Technology
        PII              personally identifiable information
        SEC or
        Commission       U.S. Securities and Exchange Commission




Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
Report No. 496
                                          Page 5
                                                                       Appendix II


                        Scope and Methodology

Scope. Initially the scope of this review was to review the handling of PII by
third-party vendors during the disgorgement process. This review was initiated
because of concerns raised in an anonymous call to the Ethics and Compliance
Employee Hotline about mishandling of PII by third-party vendors during the
disgorgement process. Following a review of the disgorgement process and
interviews with SEC Enforcement Division staff, C5i learned that the SEC is not a
party to contracts with third-party vendors appointed by courts to process
disgorgements and therefore has no liability related to PII in such cases.
Therefore, the scope of work was modified and limited to a review of the
disgorgement process and a sample of SEC contracts to determine whether they
included language that bound vendors to comply with the Privacy Act.

Methodology. C5i reviewed a judgmental sample of 11 contracts to determine
whether they included appropriate language related to the Privacy Act; the
results of a Privacy Office review of contracts to determine whether they included
provisions required by the Privacy Act, including provision for the protection of
PII; and documentation provided by the Enforcement Division detailing
disgorgement processes and procedures. We relied on information requested
from and supplied by the Enforcement Division and on interviews with
Enforcement Division staff to understand the division’s policies, methods of
operation, and procedures with respect to disgorgements. C5i also interviewed
staff in the Office of Administrative Services and the Privacy Office concerning
contracting procedures and which Privacy Act provisions were required to be
included in contracts.

Use of Computer-Processed Data. C5i used data provided in an Excel
spreadsheet by the Enforcement Division that showed disgorgements processed
in FYs 2009 and 2010.

Recent OIG Reports Addressing Privacy-Related Issues. The following OIG
reports also address privacy-related issues:

   •   OIG Report No. 489, 2010 Annual FISMA Executive Summary Report,
       issued on March 3, 2011, which contained eight recommendation to
       strengthen the Commission’s security posture.

   •   OIG Report No. 485, Assessment of the SEC’s Privacy Program, issued
       on September 29, 2010, which contained 20 recommendations to
       strengthen and improve the Commission’s security posture for protecting
       PII.



Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
Report No. 496
                                          Page 6
                                                                       Appendix II


   •   OIG Report No. 476, Evaluation of the SEC Encryption Program, issued
       on March 26, 2010, which contained three recommendations to strengthen
       information technology management controls for safeguarding the
       Commission’s information.

   •   OIG Report No. 475, Evaluation of the SEC Privacy Program, issued on
       March 26, 2010, which contained one recommendation to manage and
       operate the privacy program with appropriate internal controls, privacy
       controls, and oversight.




Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
Report No. 496
                                          Page 7
                                                                       Appendix III


                                       Criteria

Privacy Act of 1974, subsection (m)(1). Statutory provision requiring that when
an agency contracts for the operation of a system of records to accomplish an
agency function, the agency must include in the terms of the contract provisions
making the contractor responsible for complying with the Privacy Act.

SEC Administrative Regulation 24-08, April 14, 2010. Internal policy
document that establishes agencywide policy for the Commission’s privacy
program, including protection of PII collected by the SEC. It applies to all SEC
employees, contractors, interns, and other working on behalf of the SEC who
handle, control, or access information or systems that contain PII or records
subject to the Privacy Act.




Review of SEC Contracts for Inclusion of Language Addressing Privacy    July 18, 2011
Report No. 496
                                          Page 8
                                                                                                  Appendix IV


                            Management’s Comments




                                           MEMORANDUM

                                                                                 July 15.20 10

To:        H. David Kotz
           Inspector Ge neraJ
           Office of Inspector General                           ~

From:      JayneL. Seidman         ~ ~
           Acting Associate Ch iefO~~tir4 Officer
           Office of Administrative Services

S Ubject: OAS Response 10 DIG Draft Audit Review o/SEC Contracts for Inclusion of/..onzuaze
          Addressing Privacy A ct Requireml!nts, Report No. 496



Thank you for the opportuni ty to review and comment.

Recommenda tion 1:
71Il! Office ofAdministrative ServIces (OAS) shoJJd add languoge prt:)"tdl!d by thl! Office of
Information Technology to new service contracts lhot requirl! the handling of PII data slating lhat
the u.s.Securttll!S and Exchange Commi.Jsion requires the contractor to provIde copies ofthe
contractor's privacy policies and privacy impact O$#ssments.

OAS concurs. OA will include in new service contracts the language provided by the Office of
Infoonation Technology.
Recommend a tion 1:
Thti Office ofAdministrative Services should add Office of Information Technology-deflned security
reqllireWU!nts to applicable contacts stating thai COlllraclors hamlling electronic personally
identifiable Information (PIl) data may be required to WU!et defined seCUl"ity requireWU!nl$ when
transm itting PII dala across public netwQrb ( i.e. Internet) or stored on portable media. The O.ffice of
Ilfformolion Technology should add langtKlge 10 applicable interconnecli"ityagreemenl$ (JAA)
stating thot portners tralUmitting electroniC PII data across publtc networb (i.e. Internet) are
required to WU!etlhe Office of biformation Technology-defined security requiremenJs.

OAS con curs. OA will include the security requireme nts defined by the Office o fInfo nnation
TechnQlogy in applicable contracts.




Review of SEC Contracts for Inclusion of Language Addressing Privacy                                  July 18, 2011
Report No. 496
                                                     Page 9
                                                                                           Appendix IV




                                        MEMORANDUM

                                                                           July 14,2011
TO:            H. David Kotz, inspector General
               Office of inspector General (OIG)

               Jacqueline Wilso~ Assistant Inspector General for AUdi~ts
               Office of Inspector General

FROM:          Thomas A. Bayer. Chief Infonnation Officer      /.11_,A.U
               Office of Infonnation Technology (OlT)     /     I~,..--
SUBJECT:       OlT's Response to the OIG Draft Report No. 496, Review ofSEC Contracts for
               Inclusion ofLanguage Addressing Privacy Act Requirements

This memorandum is in response to the Office of Inspector General Draft Report No. 496,
Review ofSEC Contracts for Inclusion ofLanguage Addressing Privacy Act Requirements.
Thank you for the opportunity to review and respond to this report.

Recommendgrfen 1
The Office ofAdministrative Services (OAS) should add language provided by the Office of
Information Technology to new service contracts that require the handling ofPll data stating
that the U.S. Securities and ExcluJnge Commission requires .the contractor to provide copies 0/
the contractor's privacy policies and privacy impact assessments.

orr concws with this recommendation and will provide to OAS language regarding privacy
policies and privacy impact assessments for inclusion in new service contracts that require the
handling of PIT data.

Recommendation 2
The Office ofAdministrative Services should iuJd Office ofInformation Technology-defined
sf!CUrity requirements to applicable contacts stating that contractors handling electronic
personally identifiable information (PII) data may be required to meet defined security
requirements when transmitting PII data across public networks (i.e. Internet) or stored on
portable media. The Office of Information Technology should add language to applicable
interconnectivity agreements (IAA) stating that partners transmitting electronic PII data across
public networks (i.e. Internet) are required to meet the Office ufInfurmation Technology-deflned
security requirements.

orr concurs with this recommendation and will provide to OAS language regarding specific
security requirements for inclusion in applicable contracts. In addition, OIT will add language
regarding specific security requirements to its IAA related to transmitting electronic PIT.




Review of SEC Contracts for Inclusion of Language Addressing Privacy                          July 18, 2011
Report No. 496
                                                Page 10
                                                                       Appendix V


      OIG Response to Management’s Comments

We are pleased that OAS and OIT have concurred with the report’s two
recommendations. We are also encouraged that OAS and OIT have indicated
that they will work together to implement the recommendations and that they
have already taken steps to implement the recommendations. We believe that
OAS and OIT’s proposed actions are responsive to the report’s findings and
recommendations.

Once both recommendations are fully implemented, we believe the SEC’s
security posture will be strengthened, and contractors wanting to conduct
business with the agency will be fully aware of the SEC’s expectations for
adequately protecting Commission data.




Review of SEC Contracts for Inclusion of Language Addressing Privacy   July 18, 2011
Report No. 496
                                         Page 11
                    Audit Requests and Ideas
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at
      the SEC, contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
